                        UNITED STATES DEPARTMENT OF EDUCATION
                              OFFICE OF INSPECTOR GENERAL

                                                                                                      Audit Services
                                                                                                 Dallas Audit Region
                                                September 18, 2007

                                                                                                  Control Number
                                                                                                ED-OIG/A06G0009

Mr. Robert Scott
Acting Commissioner of Education
Texas Education Agency
1701 N. Congress Avenue
Austin, TX 78701-1494


Dear Mr. Scott:

This Final Audit Report summarizes the results of our audit of the Hurricane Education
Recovery Act, Temporary Emergency Impact Aid for Displaced Students (EIA) requirements at
the Texas Education Agency (TEA) and applicable Local Education Agencies (LEA). Our
objectives were to determine if (1) TEA and selected LEAs established adequate systems of
internal control to provide accurate displaced student count data; (2) TEA established an
adequate system of internal control to make accurate allocations of EIA funds; and (3) LEAs
used EIA funds only for expenditures within the cost categories allowed by the terms of the grant
and applicable laws and regulations. In addition, we evaluated TEA’s controls over its planned
administration of the Assistance for Homeless Youth program. Our audit period was August 22,
2005, through June 30, 2006 (school year 2005-2006).



                                               BACKGROUND 


In 2005, Hurricanes Katrina and Rita had a devastating and unprecedented impact on students
who attended schools in the declared disaster area – Louisiana, Mississippi, Alabama, and Texas.
Because of the devastating effects, a significant number of students enrolled in schools outside of
the area in which they resided before the hurricanes struck. Hurricane Katrina alone displaced
about 372,000 students, with over 45,000 students displaced to Texas. In response to these
extraordinary conditions, Congress created one-time only emergency grants for the 2005-2006
school year.

On December 30, 2005, the Hurricane Education Recovery Act (Division B, Title IV of P.L.
109-148) was signed. The legislation authorized three new grant programs to assist schools,
which closed as a result of the hurricanes, to reopen quickly and meet the educational needs of
the displaced students. One of the grant programs was the EIA program designed to provide
funds to school districts that took in displaced students.


   The Department of Education’s mission is to promote student achievement and preparation for global competitiveness by
                               fostering educational excellence and ensuring equal access.
Final Audit Report
ED-OIG/A06G0009                                                                      Page 2 of 20
Initially, Congress appropriated $645 million for the EIA program, and then added $235 million
in a supplemental-spending bill approved June 15, 2006.

To receive the funding, eligible State Education Agencies (SEAs) provided quarterly enrollment
counts of displaced students and other application information to the Department of Education
(Department). Displaced students were defined as those students who, on August 22, 2005, were
enrolled in a school in an area that the Federal government declared a major disaster area related
to Hurricanes Katrina or Rita; and as a result of their displacement by the storms, were
subsequently enrolled in schools other than their normal school on specific quarterly count dates.

Based on the funding appropriated, the Department agreed to make four quarterly payments to
the SEAs of $1,500 per displaced student without disabilities and $1,875 per displaced student
with disabilities. TEA established four specific count dates for its LEAs—September 29, 2005,
December 1, 2005, February 1, 2006, and March 30, 2006. As of January 20, 2007, the
Department obligated $250,890,000 to TEA in EIA funds and TEA drew down $234,811,901
based on quarterly counts of displaced students. At the time of our review, the seven LEAs
reviewed were scheduled to receive the following EIA funds:

               Aldine ISD                           $ 9,727,726
               Alief ISD                            $16,065,510
               Arlington ISD                        $ 6,504,512
               Beaumont ISD                         $ 7,132,891
               Dallas ISD                           $11,546,823
               Houston ISD                          $36,111,543
               Richardson ISD                       $ 5,939,299

                                     Total          $93,028,304

From the time Hurricane Katrina devastated the gulf coast on August 29, 2005, to the first
quarter count date on September 29, 2005, Texas school districts enrolled over 45,000 displaced
students. Some of the districts, such as Houston and Dallas, enrolled students directly from
evacuation centers (i.e., Houston Astro Dome and various convention centers). The districts’
goals were to get the students enrolled quickly and pursue eligibility issues later. Often the
hurricane evacuees did not have any documentation, and the districts had to rely on oral
information provided by the parents. To assist the districts in obtaining academic information
for the displaced students, the Louisiana Department of Education (LDE) provided the 2004-
2005 public school database to TEA. The Texas districts used the database to verify the
students’ previous enrollment in public schools; however, students that attended private schools
in Louisiana were not included in this database.

The initial enrollment was not the only obstacle the districts had to deal with—the evacuee
population also was quite mobile. Evacuees would move from the evacuation centers to
temporary housing, causing students to change schools within the district or even change school
districts within a short amount of time. It was not uncommon to see displaced students move
three to four times within the school year. The large number of displaced students in some
districts led to a strain on classroom space, books, teachers, school buses and drivers, and
counseling services.
Final Audit Report
ED-OIG/A06G0009                                                                       Page 3 of 20
By the time Congress enacted the EIA program, Texas LEAs had been providing education to
displaced students for almost five months. The LEAs paid for the cost of educating the displaced
students from their general fund and planned on reimbursing themselves with the EIA funds.
Based on the cost of education per student at the seven LEAs we reviewed, the EIA funds
received or anticipated do not completely cover the actual cost of educating the displaced
students. The largest cost of education expenditure was instruction/salary. Other expenditures
included but were not limited to, staff development, counseling, social work services, student
transportation, facilities maintenance and operations, and general administration.

According to Section 107(e)(1) of the Hurricane Education Recovery Act (HERA), the
authorized uses of EIA funds include, compensation of personnel, classroom supplies, mobile
educational units and leasing sites, educational services, reasonable transportation costs, health
and counseling services, as well as education and support services. The Department guidance to
the LEAs stated that while the activities and services must be related to serving displaced
students, there is no requirement that they be provided only to those students. In addition,
Department officials stated that LEAs are not required to track expenditures for displaced
students separately, and they may use EIA funds very flexibly and for pre-award costs.

The Assistance for Homeless Youth (HY) program, which was also authorized under the HERA,
is closely related to the EIA program. The program provided funding to SEAs to assist in
meeting the needs of students displaced by Hurricanes Katrina and Rita, and for the purposes of
carrying out Section 723 of the McKinney-Vento Homeless Assistance Act (42 U.S.C. 1143).
TEA received more than $1.6 million in HY funding and allocated those funds to nine LEAs.
TEA allocated HY funding only to LEAs that had more than 1,000 displaced students.

The summary of our work is shown in the Audit Results section and the detailed results of the
seven districts are summarized in the Attachment.



                                     AUDIT RESULTS 


We found that TEA made accurate allocations of EIA funds to the LEAs, and EIA funds were
expended within allowable cost categories. Specifically, TEA allocated the correct amount of
funds to the LEAs for students with and without disabilities based on the LEAs’ counts, and EIA
funds were then used to reimburse the LEAs for salary and benefit costs already incurred. In
addition, we determined that TEA had adequate policies, procedures, and controls over its
planned administration of the HY Program. At the time of our audit work, TEA had not received
any HY funding from the Department. Therefore, we only evaluated the controls over how TEA
planned to allocate the HY funding. We did not evaluate the accuracy of the allocations or the
expenditures of HY funds.

We found that TEA and the LEAs did not have adequate systems of internal control to provide
accurate displaced student count data. TEA submitted incorrect student-count data that included
ineligible students, misclassified students, and duplicate students within the State. In
Final Audit Report
ED-OIG/A06G0009                                                                                      Page 4 of 20
addition, neither TEA nor the LEAs had policies or procedures in place to ensure incoming
displaced students were not counted, in the same quarter, in other states. As a result of the
inadequate controls over the displaced student counts, TEA received a total estimated
overpayment of over $10 million1 in EIA funds for the first three quarters. We also found that
Texas and Louisiana both counted 533 students in the same quarter, which resulted in TEA and
the associated LEAs receiving a possible overpayment of up to $799,500 in EIA funds.

In its comments to the draft report, TEA concurred with certain aspects of our finding but did not
concur with our recommendations. The comments are summarized at the end of each finding.
The full text of TEA’s comments on the draft report is included as Attachment 2 to the report.
TEA also provided additional information in its response that was not presented during the audit
fieldwork. TEA’s response did not result in changes to the report finding as a whole, however,
the error rates and associated information were changed. Because we accepted some of the
additional documentation providing enrollment and Individualized Education Plan (IEP)
information for displaced students, we modified Recommendation 1.1. The remaining three
recommendations were not changed.

Finding: TEA and the LEAs Did Not Have Adequate Controls for EIA Counts

TEA did not have adequate controls to provide accurate EIA displaced student counts.
Specifically, TEA did not have a process or mechanism to track displaced students and identify
data errors, such as students claimed by multiple LEAs or students that were enrolled prior to
August 22, 2005. Additionally, TEA did not ensure the LEAs maintained the required
supporting documentation to substantiate the student counts in quarterly reports. Our testing at
seven LEAs revealed: (1) 296 of the 2,005 (15 percent) reported displaced students in our sample
did not meet eligibility requirements, resulting in an overstated EIA claim of $400,500,2 (2)
LEAs counted students as students with disabilities but did not have the supporting
documentation to justify that classification, and (3) LEAs changed their quarterly counts
numerous times with various submissions to TEA.

TEA Counted and Reported Ineligible and Misclassified Displaced Students
at Seven LEAs

To test the adequacy of internal controls over EIA funding, we obtained displaced student count
data from seven LEAs. From this data, we reviewed a random sample of 2,005 students (1,050
students without disabilities and 955 students with disabilities), with EIA awards, totaling
$3,365,625.3 We tested the adequacy of supporting documentation for all students in the sample
and for the count dates of September 29, 2005, December 1, 2005, and February 1, 2006. We

1
  Approximately $6,871,800 in projected excess EIA funding was claimed by the seven districts based on ineligible
and misclassified student counts and $3,415,500 in ineligible EIA funds was provided to the LEAs for 2,277
duplicate-counted and ineligible students identified in the statewide database ($6,871,800 + $3,415,500 =
$10,287,300).
2
  112 ineligible students without disabilities x $1,500 per student = $168,000; 75 misclassified students with
disabilities x $375 per student ($1,875 - $1,500 = $375) = $28,125; and 109 ineligible students with disabilities x
$1,875 per student = $204,375.
3
  1,050 students without disabilities x $1,500 per student = $1,575,000 and 955 students with disabilities x $1,875
per student = $1,790,625.
Final Audit Report
ED-OIG/A06G0009                                                                                        Page 5 of 20
determined that 296 of the 2,005 displaced students were either ineligible for EIA funds because
they did not meet the definition of a displaced student and/or the definition of a student with
disabilities, or they were misclassified as a displaced student with disabilities when they met
only the displaced criteria. The sample size and number of students determined to be ineligible
or misclassified for each district are shown below:

                  Students without Disabilities                         Students with Disabilities

    LEA                                                              Number                       Total
                            Number                                                 Number                    Percent-
                Sample                     Error       Sample      Determined                   Ineligible
                           Determined                                             Determined                  age of
                Size *                     Rate         Size*          Mis-                     and Mis-
                           Ineligible                                             Ineligible                  Errors
                                                                    classified                  classified
Dallas ISD          150            37         25%           150              21           39            60       40%

Arlington           150            11          7%           107               4             5            9         8%
ISD
Houston             150              9         6%           150             13              9           22       15%
ISD
Alief ISD           150              3         2%           150               1             5            6         4%
Aldine ISD          150              2         1%           137             10              3           13         9%
Richardson          150            10          7%           140             17              3           20       14%
ISD
Beaumont            150            40         27%           121               9           45            54       45%
ISD
Total             1,050           112         11%           955             75           109          184        19%
* We selected a random sample, from the count data available during our fieldwork, of at least 50 students or 50
percent of the universe (whichever was lower) for each of the first three quarter counts.

The seven LEAs reviewed had a combined universe of 47,3894 displaced students in the first
three quarters. Based on the error rates found in the seven LEAs we reviewed, we estimate that
as many as 4,7135 displaced students could have been inaccurately counted as eligible for EIA
funding. We project that TEA received a total of approximately $6.87 million6 in ineligible
funding for the seven districts audited based on ineligible and misclassified student counts in the
first three quarters.

According to the Hurricane Education Recovery Act, Subtitle A, Section 107(b)(1)—

         The term “displaced student” means a student who enrolled in an elementary school or
         secondary school (other than the school that the student was enrolled in, or was eligible to
         be enrolled in on August 22, 2005) because such student resides or resided on August 22,
         2005 in an area for which a major disaster has been declared . . . .


4
  Universe details are shown in the Attachment: Dallas 7,239; Arlington 3,415; Houston 18,134; Alief 7,768; Aldine 

4,684; Richardson 2,872; and Beaumont 3,277. 

5
  We are 95% confident that the true frequency of occurrence of the attribute tested is 4,713 units, plus or minus 852

units. 

6
  We are 95% confident that the ineligible HERA EIA funding for the seven school districts as a group total, equals

approximately $6,871,700, plus or minus $1,294,100.

Final Audit Report
ED-OIG/A06G0009                                                                       Page 6 of 20
Volume I Revised of the “Frequently Asked Questions - EIA for Displaced Students,” references
34 C.F.R. 80.42 for the requirements regarding recordkeeping. Pursuant to 34 C.F.R. 80.42,
grantees are required to maintain, for three years, all financial and programmatic records,
supporting documents, statistical records, and other records of grantees or sub-grantees, which
are required to be maintained by the terms of program regulations, grant agreements, or
otherwise reasonably considered to be pertinent.

Documentation was considered inadequate if we could not determine if the student previously
resided in a declared disaster area. Based on the enrollment forms, we tried to verify the disaster
area school where the student was previously enrolled, prior residency of the student, and other
factors that would identify the student as being from a disaster area. Often the LEA enrollment
forms were incomplete, containing no previous address, no previous school, or no previous
school address or city location. We are aware of the documentation problems the LEAs faced
because the displaced students did not have the usual enrollment documentation (i.e., transfer
documents, Social Security cards, immunization records, etc.) with them. We were flexible with
the type of documentation/information we accepted to make eligibility determinations and
recognized the hardship the districts were under. For example, if the enrollment document only
had the name of the previous school with no address, we would use several research tools to
determine if the school was in a disaster area. However, in some cases, LEA staff did not obtain
enough information to make a displaced determination. For students with disabilities, we
considered the documentation to be inadequate if the LEA did not complete the students’ IEP or
document the disability determination prior to the quarterly count date or within a reasonable
timeframe after the count date.

Although TEA has a comprehensive, statewide, student-specific data collection system, Public
Education Information Management System (PEIMS), TEA allowed the individual LEAs to use
their own enrollment software to identify and track the displaced students instead of using
PEIMS. Consequently, TEA did not have a centralized, statewide database with student-level
data or a process for linking student records between districts. TEA said it chose not to use
PEIMS because it would have taken too long and been too costly to modify the system to add an
additional data field to flag the displaced students.

Instead TEA used a manual, dual entry process for reporting its quarterly counts to the
Department. First, the LEAs submitted their quarterly counts to TEA, and TEA would enter the
LEA counts into a combined TEA spreadsheet. Second, another TEA official would enter the
same count information into a second spreadsheet for comparison with the first spreadsheet. If
any differences (typographical errors) were identified between the two spreadsheets, TEA would
correct one spreadsheet so that both spreadsheets matched the data submitted by the LEAs. The
spreadsheet results were then used to calculate the State’s quarterly count to the Department.
However, TEA did not require the LEAs to submit source documentation to substantiate the
numbers submitted, nor did it have any other control to ensure the accuracy of the submitted
data. Consequently, this process only ensured that the numbers matched between the two
spreadsheets, but did not provide any assurance that the numbers submitted by the LEAs and
subsequently reported to the Department were accurate and reliable.
Final Audit Report
ED-OIG/A06G0009                                                                                  Page 7 of 20
TEA Reported Additional Ineligible and Duplicate Students Statewide

In October 2005, TEA instructed the LEAs to maintain a Katrina/Rita indicator (KRI) file that
would support the count figures submitted by the LEAs. In the early stages of the influx of
students, the LEAs counted displaced student on a daily basis, and then moved to weekly and
eventually monthly counts. The LEAs we visited used their local database systems to track their
quarterly counts. When we requested the KRI file, several LEAs indicated that they had never
heard of such a file, while others needed further instructions on how to create the file. Because
the KRI files were not available at TEA or the LEAs we reviewed, we requested and obtained
displaced student enrollment data from all LEAs that served displaced students. We created a
comprehensive, statewide database using the LEAs’ submitted data. From this database, we
identified 1,434 displaced students that were counted in more than one LEA for the same quarter
and 843 students who were enrolled in the various districts prior to August 22, 2005. These
2,277 duplicate-counted and ineligible students represented $3,415,500 (2,277 x $1,500) in
ineligible EIA funds provided to the LEAs. We did not have the detail support from all the
LEAs to determine if the displaced students were misclassified.

These conditions occurred because of the magnitude of the disaster, the evacuees’ need for
immediate assistance, the lack of statewide or LEA-specific disaster guidance and plans, and the
lack of procedures to verify the accuracy of LEA displaced student counts reported to the
Department. Additionally, the LEAs did not understand how to implement KRI files or had not
heard of the requirement. Despite these conditions, the districts did an extraordinary job of
enrolling the large influx of displaced students quickly and getting them into the classroom to
establish a sense of normalcy by continuing their education.

Based on our review of the seven LEAs and our statewide review for duplicate and non-
displaced students, we estimate that TEA and the LEAs claimed over $11 million in excess EIA
funds in the first three quarters. Additionally, based on the inaccuracies in the displaced student
counts in the 7 districts, the Department has no assurance that the other 342 TEA districts that we
did not review accurately counted displaced students for the 2005-2006 school year. At the time
of our review, the remaining LEAs were scheduled to receive approximately $1577 million in
EIA funding.

Recommendations

We recommend that the Assistant Secretary for the Office of Elementary and Secondary
Education instruct TEA to—

1.1 	   Provide support or return approximately $6.87 million of EIA funds for ineligible
        students identified at the seven districts we audited.

1.2	    Provide support or return over $3.4 million of EIA funds for the statewide duplicate
        students reported and students enrolled prior to the eligibility date.

7
  Of the $250,890,000 in EIA funds the Department obligated to TEA, the seven LEAs reviewed were scheduled to
receive $93,028,304; TEA retained $700,000 for administrative purposes ($250,890,000 - $93,028,304 - $700,000 =
$157,161,696).
Final Audit Report
ED-OIG/A06G0009                                                                       Page 8 of 20
1.3 	   Conduct a statewide count of displaced students for the $250,890,000 of EIA funds
        allocated to TEA in school year 2005-2006, and return to the Department any funds
        expended for ineligible or misclassified students.

We further recommend that the Assistant Secretary for the Office of Elementary and Secondary
Education encourage TEA to—

1.4 	   Develop a statewide emergency plan for future disasters, which includes controls to
        ensure accurate student data, as well as guidance to the LEAs that outlines how to enroll
        and track a large influx of students.

TEA’s Comments

The TEA consents that controls and procedures could always be improved. However, TEA
disagrees that there were inadequate internal controls. TEA also concurs with the auditor’s
comments that TEA made accurate allocations of EIA funds to the LEAs and that EIA funds
were expended within allowable cost categories. While TEA agrees that documentation and
controls could always be improved, they urge the Inspector General and the Department of
Education to attempt to understand the magnitude of the situation in which the LEAs and the
State were placed with two hurricanes and over 46,500 homeless displaced students, and not to
exacerbate the difficult situation further by requesting funding to be returned when the auditors
have already stated that the funding did not cover the actual cost of educating the displaced
students.

TEA did not concur with Recommendation 1.1 – stating that since the OIG’s audit of these seven
LEAs, the TEA has continued to work with them in an ongoing review and reconciliation of the
HERA student eligibility documentation. Through this ongoing review process with the LEAs,
two substantial outcomes have occurred:

           1.	 Additional documentation regarding student eligibility that lowers the number of
               ineligible and misclassified students reported by the OIG in the draft audit report
               has been submitted (information on individual students were submitted by:
               Aldine, Arlington, Beaumont, Houston, and Richardson ISDs); and,

           2.	 Some LEAs reduced the number of students reported for quarters 1–3 based on
               information obtained in the verbal exit conference with the OIG at the conclusion
               of the on-site visit (Dallas and Alief ISDs).

TEA did not concur with Recommendation 1.2 – stating the OIG requested displaced student
enrollment information from all the LEAs in Texas that served displaced students. This
information was requested by the OIG in the spring of 2006. By USDE request, the LEAs were
to downwardly amend their numbers until July 31, 2006. The trend is that final numbers were
reduced as LEAs continued to reconcile and confirm eligibility status and enrollments. Thus,
TEA believes that the number of duplicate students is much lower than that stated in the Draft
Audit Report. TEA is in the process of reviewing this duplicate information and contacting
districts to verify with documentation the enrollment and withdrawal dates of these duplicate and
Final Audit Report
ED-OIG/A06G0009                                                                      Page 9 of 20
early enrollment students. TEA’s review process has begun by analyzing attendance data for
these students from its Public Education Information Management System (PEIMS), the State’s
comprehensive, statewide, student-specific data collection system. This initial review has
revealed that some students that the auditors deemed to be duplicate students were, in fact, two
or sometimes three separate students with the same name. TEA also stated that it has been able
to identify that all duplicate students noted in the auditors’ database are not duplicates.

TEA did not concur with Recommendation 1.3 – but submitted an alternative corrective action
plan. Through its School Financial Audit Division, the TEA has already included EIA funding
within its scope of financial monitoring and accountability. Because of a situation that occurred
at one school and the concerns expressed by the Department, the TEA added additional audit
procedures to review EIA funds for displaced students at any entity that received an audit during
the normal audit cycle and also received EIA funds. There are several LEAs that have
undergone this type of review; however, no final audit reports for these LEAs are available at the
time of this submission. Appropriate corrective actions will be implemented with any LEA that
is found to have incorrectly implemented EIA grant guidelines.

TEA did not concur with Recommendation 1.4 – but submitted comparable corrective action
currently in development. In an effort to further increase internal controls, the TEA proposes
that should a catastrophic event like Hurricanes Katrina and Rita occur again, which would
require the monitoring of a subgroup of students unable to be tracked in PEIMS, TEA will
require that the LEAs submit to the Agency a standardized reporting file, such as the KRI file.
The TEA will collect these files and create a statewide database in an effort to provide better
oversight, monitoring, and reconciliation of student data.


OIG’s Response

Although TEA provided additional information in its response that was not presented during the
audit fieldwork, some of the additional information provided was incomplete, did not include
adjusted allocation information to support the new information, or was not convincing enough to
change the original determination. Because we accepted some of the additional documentation
providing enrollment and IEP information for displaced students, we modified Recommendation
1.1.

Even though TEA did not concur with Recommendation 1.2, it stated that it is in the process of
identifying duplicate counted students. Although TEA stated it has identified that all duplicate
students noted in the auditors’ database are not duplicates, TEA did not provide any additional
substantiating documentation. Therefore, we did not change the recommendation because TEA
did not provide any evidence that the process is complete.

TEA did not concur with Recommendation 1.3; however, TEA provided information regarding
the audit procedure used by TEA. Although TEA included the EIA funds in the audit process,
this action only addresses part of the recommendation. The corrective action lacked information
regarding how many districts will be audited and the time frame for completion. Therefore, we
did not change the recommendation.
Final Audit Report
ED-OIG/A06G0009                                                                                    Page 10 of 20
In response to Recommendation 1.4 to develop a statewide emergency plan for future disasters,
TEA’s proposed corrective action appears to address the recommendation. We did not change
the recommendation because the corrective action has not been reviewed.



                                          OTHER MATTERS 


Comparison of Texas and Louisiana Databases Identified Duplicate Counted Students

Neither TEA nor the LEAs had policies or procedures established to ensure the incoming
displaced students were not counted, in the same quarter, in both Texas and Louisiana. The LDE
provided us with a database of displaced students who attended schools in Louisiana. However,
TEA did not have a statewide database. Consequently, we built a statewide database by
contacting the 349 LEAs that had displaced students enrolled, and requested their KRI files. As
we discussed earlier, several LEAs indicated that they had never heard of a KRI file, while others
needed further instructions on how to create the file. From the data submitted, we created a
comprehensive, statewide database of all displaced students enrolled in the 349 LEAs. We then
compared the Louisiana displaced student database to the Texas displaced student database and
identified 533 students that were counted by Texas and Louisiana in the same quarters. The
duplicate student counts resulted in a minimum of $799,5008 being claimed by Texas and
Louisiana for the same students. We did not determine which State should have correctly
counted the displaced students. Therefore, TEA and the associated LEAs could have received a
possible overpayment of $799,500 in EIA funds. We are addressing this issue in a memorandum
to the Department with a recommendation that the Department coordinate with Texas and
Louisiana and determine the amount each state should refund due to the duplicate funding.



                    OBJECTIVES, SCOPE, AND METHODOLOGY 


Our objectives were to determine if (1) TEA and selected LEAs established adequate systems of
internal control to provide accurate displaced student count data; (2) TEA established an
adequate system of internal control to make accurate allocations of EIA funds; and (3) LEAs
used EIA funds only for expenditures within the cost categories allowed by the terms of the grant
and applicable laws and regulations. In addition, we evaluated TEA’s controls over its planned
administration of the Assistance for Homeless Youth program.

We originally selected eight LEAs for review. However, we reduced the number of LEAs to
seven when, subsequent to our on-site audit work, Killeen Independent School District withdrew
from the EIA program because district officials felt the TEA application process was too
cumbersome. We selected six of the seven LEAs (Houston, Dallas, Aldine, Alief, Arlington, and
Richardson) based upon the number of displaced students enrolled in those LEAs, and selected
8
 533 students x $1,500 per student = $799,500. We did not determine if any of the students had disabilities, which
would have increased the amount to $1,875 per student.
Final Audit Report
ED-OIG/A06G0009                                                                     Page 11 of 20
Beaumont because it also received Immediate Aid to Restart School Operations funds. The
seven LEAs reviewed represented 37 percent of the EIA funding provided to Texas.

To accomplish our objectives, we—

   •	 Obtained and reviewed portions of the HERA, regulations, and guidance relevant to the
      audit objectives.
   •	 Created a statewide database of displaced students by obtaining student data from the 349
      LEAs that had displaced students enrolled.
   •	 Selected a random sample of displaced students with and without disabilities, from the
      count data available during our fieldwork, of at least 50 students or 50 percent of the
      universe (whichever was lower) for each of the first three quarter counts at the seven
      LEAs reviewed.
   •	 Reviewed displaced student files at the seven LEAs.
   •	 Interviewed the LEA officials at the seven LEAs.
   •	 Compared the database we created of Texas displaced students with the Louisiana 

      displaced student database. 

   •	 Reviewed TEA organization charts.
   •	 Interviewed State officials at TEA to obtain an understanding of the internal controls over
      displaced student counts.
   •	 Obtained and reviewed a listing of recorded EIA expenditures and EIA drawdown
      information for each of the seven selected LEAs to determine whether the LEAs charged
      expenditures only to the cost categories allowed by the terms of the grant and applicable
      laws and regulations. We did not test individual expenditure transactions.
   •	 Interviewed TEA personnel responsible for the administration of the HY program, and
      reviewed the policies and procedures that would be used to determine which LEAs would
      receive funding, the allocation of the funds, and the administration of the program.

We relied upon the computerized student roster lists provided by school officials for selecting
our sample. We tested the student roster lists for accuracy and completeness by comparing
selected source records to the student roster lists. Based on this test, we concluded that the
student roster lists at all seven LEAs were sufficiently reliable to be used for the sample
population.

We conducted an assessment of internal control, policies, procedures, and practices applicable to
TEA’s administration of EIA funds. Our testing identified weaknesses which adversely affected
TEA’s ability to adequately verify the count data from the LEAs. These weaknesses are
discussed in the AUDIT RESULTS section of this report.

We conducted our fieldwork at the TEA and the seven LEAs between February 2006 and July
2006. Additional work was performed to update count and funding information through
December 2006. We held an exit conference with TEA officials on December 15, 2006 to
discuss the results of our audit.

Our audit was performed in accordance with generally accepted government auditing standards
appropriate to the scope of the review described above.
Final Audit Report
ED-OIG/A06G0009                                                                      Page 12 of 20

                            ADMINISTRATIVE MATTERS 


Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on this audit:

                                      Kerri L. Briggs
                                      Assistant Secretary
                                      Office of Elementary and Secondary Education
                                      U.S. Department of Education
                                      400 Maryland Ave., SW
                                      Washington, D.C. 20202-6100

It is the policy of the U. S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.


                                                     Sincerely,


                                                     /s/
                                                     Sherri L. Demmel
                                                     Regional Inspector General
                                                       for Audit


Attachments
Final Audit Report                                                                    Attachment 1 

ED-OIG/A06G0009                                                                       Page 13 of 20 

Results of the Seven LEA Reviews

The following is a brief summary of our audit work at the seven LEAs.

Dallas Independent School District (ISD)

Dallas ISD did not adequately document the displaced status for 25 percent of the students
without disabilities and 40 percent of the students with disabilities sampled for the first three
quarters, which resulted in $136,500 in additional EIA funds being distributed to the district for
the sampled students. Dallas ISD did not provide sufficient documentation to support the
eligibility of the displaced students. For example, Dallas ISD staff did not obtain enough
information to make a displaced determination (name or location of last school attended);
enrollment forms were missing; or the enrollment document indicated the student last attended
school in a school outside the disaster area, was enrolled in Dallas ISD prior to August 22, 2005,
or was not enrolled in Dallas ISD on the specific count date. For the students with disabilities,
Dallas ISD either did not provide sufficient proof of the student’s disability prior to the count
date, or we determined that the student was not displaced based on the examples above. In
addition, during our site visit, some of the non-public schools decided not to provide us with the
documentation needed for our review due to privacy concerns. Therefore, the students in our
sample that attended those non-public schools were considered ineligible because we could not
verify that they were displaced. Dallas ISD had an enrollment of approximately 160,000
students at 217 campuses and an average of over 2,400 displaced students for the first three
quarters.

The universe, sample size, and number of students determined to be ineligible for each quarter
are shown below:

               Quarters                Universe     Sample     Number            Number
                                                    Size       Determined        Determined
                                                               Misclassified     Ineligible
    Quarter 1 Without Disabilities     2541         50         N/A               15
    Quarter 2 Without Disabilities     2324         50         N/A               14
    Quarter 3 Without Disabilities     1935         50         N/A               8

    Quarter 1 With Disabilities        130          50         13                12
    Quarter 2 With Disabilities        161          50         7                 19
    Quarter 3 With Disabilities        148          50         1                 8
    Total                              7,239        300        21                76

Dallas ISD used the same enrollment policies as they would for any other student. Dallas ISD
did not require any additional information from the displaced students. Students mostly enrolled
at the local shelters in the area, but some students enrolled at the specific school they would
attend. Each individual school would code the students as a displaced student in the district’s
Delta System (district student data information system). The school would update the
information on the students and upload the information to the main system. Student Services, a
division with the Dallas ISD administrative offices, could then run queries for the aggregate
Final Audit Report                                                                      Attachment 1 

ED-OIG/A06G0009                                                                         Page 14 of 20 

number of displaced students. Dallas ISD used the Town and Country field within the PEIMS to
code the students as displaced, however, the PEIMS was not used to report the student count
information. The audit team obtained enrollment and withdrawal information from Student
Services because Dallas ISD did not have the information in a KRI file. We reviewed student
files to determine if students met the eligibility requirements of displaced students, regardless of
where (school or convention center) the student initially enrolled. The sample students were
selected from a universe provided by the district and comprised a statistically valid random
sample. At the time of our review, Dallas ISD was scheduled to receive a total of $11,546,823 in
EIA funds.

The audit results of the six random samples selected in Dallas ISD were projected to the universe
of displaced students. The projections statistically quantify the monetary value of the EIA funds
that are associated with reported displaced students, who did not meet eligibility criteria or were
considered to be misclassified.

Arlington ISD

Arlington ISD did not adequately document the displaced status for seven percent of the students
without disabilities and eight percent of the students with disabilities sampled for the first three
quarters, which resulted in $27,375 of additional EIA funds being distributed to the district for
the sampled students. Arlington ISD did not provide sufficient documentation to support the
eligibility of the displaced students. For example, Arlington ISD staff did not obtain enough
information to make a displaced determination (name or location of last school attended);
enrollment forms were missing; or the enrollment document indicated the student last attended
school in a school outside the disaster area, was enrolled in Arlington ISD prior to August 22,
2005, or was not enrolled in Arlington ISD on the specific count date. For the students with
disabilities, Arlington ISD either did not provide sufficient proof of the student’s disability prior
to the count date, or we determined that the student was not displaced based on the examples
above. Arlington ISD, located in the heart of the Dallas-Fort Worth Metroplex, had an
enrollment of more than 62,000 students at 74 campuses and an average of 1,138 displaced
students for the first three quarters.

The universe, sample size, and number of students determined to be ineligible for each quarter
are shown below:

                 Quarters                Universe Sample         Number            Number
                                                  Size           Determined        Determined
                                                                 Misclassified     Ineligible
     Quarter 1 Without Disabilities      1251        50          N/A               4
     Quarter 2 Without Disabilities      1094        50          N/A               5
     Quarter 3 Without Disabilities      857         50          N/A               2

     Quarter 1 With Disabilities         51          25          0                 3
     Quarter 2 With Disabilities         79          40          4                 0
     Quarter 3 With Disabilities         83          42          0                 2
     Total                               3,415       257         4                 16
Final Audit Report                                                                   Attachment 1 

ED-OIG/A06G0009                                                                      Page 15 of 20 

Arlington ISD identified the displaced students by coding (into the district centralized student
system) Katrina or Rita into the transfer code field. Each individual campus was responsible for
the enrolling and coding of displaced students. The centralized computer system updates PEIMS
nightly; however, PEIMS was not used to track displaced students. The district conducted daily
displaced student counts and had the schools periodically verify the counts. We reviewed
student files to determine if students met the eligibility requirements of displaced students. The
sample students were selected from a universe provided by the district and comprised a
statistically valid random sample. At the time of our review, Arlington ISD was scheduled to
receive a total of $6,504,512 in EIA funds.

The audit results of the six random samples selected in Arlington ISD were projected to the
universe of displaced students. The projections statistically quantify the monetary value of the
EIA funds that are associated with reported displaced students, who did not meet eligibility
criteria or were considered to be misclassified.

Houston ISD

Houston ISD did not adequately document the displaced status for 6 percent of the students
without disabilities and 15 percent of the students with disabilities sampled for the first three
quarters, which resulted in $35,250 in additional EIA funds being distributed to the district for
the sampled students. Houston ISD did not provide sufficient documentation to support the
eligibility of the displaced students. For example, Houston ISD staff did not obtain enough
information to make a displaced determination (name or location of last school attended);
enrollment forms were missing; or the enrollment document indicated the student last attended
school in a school outside the disaster area, was enrolled in Houston ISD prior to August 22,
2005, or was not enrolled in Houston ISD on the specific count date. For the students with
disabilities, Houston ISD either did not provide sufficient proof of the student’s disability prior
to the count date, or we determined that the student was not displaced based on the examples
above. The Houston ISD had an enrollment of more than 210,000 students at 306 campuses, and
is the seventh-largest public-school system in the nation and the largest in Texas. Houston ISD
had an average of 6,045 displaced students for the first three quarters.

The universe, sample size, and number of students determined to be ineligible for each quarter
are shown below:

               Quarters               Universe Sample         Number           Number
                                               Size           Determined       Determined
                                                              Misclassified    Ineligible
    Quarter 1 Without Disabilities    5520        50          N/A              5
    Quarter 2 Without Disabilities    5995        50          N/A              2
    Quarter 3 Without Disabilities    5344        50          N/A              2

    Quarter 1 With Disabilities       284         50          11               5
    Quarter 2 With Disabilities       487         50          2                2
    Quarter 3 With Disabilities       504         50          0                2
    Total                             18,134      300         13               18
Final Audit Report                                                                    Attachment 1 

ED-OIG/A06G0009                                                                       Page 16 of 20 


Houston ISD had special enrollment procedures for displaced students that were being enrolled
at the two shelter locations (Reliant Center and Brown Convention Center). If the displaced
student enrolled at a specific school, the district’s regular enrollment procedures were to be
followed. The hurricane evacuee students were first coded as homeless students in the district
School Administrative Student Information (SASI) system. The district added additional codes
to the SASI system to further identify displaced students. The SASI system is uploaded nightly
into the AS400 database system. The district ran queries from the AS400 system to identify the
number of displaced students at any given time. The AS400 system populates the state PEIMS
system.

We reviewed student files to determine if students met the eligibility requirements of displaced
students. The sample students were selected from a universe provided by the district and
comprised a statistically valid random sample. At the time of our review, Houston ISD was
scheduled to receive a total of $36,111,543 in EIA funds.

The audit results of the six random samples selected in Houston ISD were projected to the
universe of displaced students. The projections statistically quantify the monetary value of the
EIA funds that are associated with reported displaced students, who did not meet eligibility
criteria or were considered to be misclassified.

Alief ISD

Alief ISD did not adequately document the displaced status for two percent of the students
without disabilities and four percent of the students with disabilities sampled for the first three
quarters, which resulted in $14,250 in additional EIA funds being distributed to the school
district for the sampled students. Alief ISD did not provide sufficient documentation to support
the eligibility of the displaced students. For example, Alief ISD staff did not obtain enough
information to make a displaced determination (name or location of last school attended); or the
enrollment document indicated the student last attended school in a school outside the disaster
area, was enrolled in Alief ISD prior to August 22, 2005, or was not enrolled in Alief ISD on the
specific count date. For the students with disabilities, Alief ISD either did not provide sufficient
proof of the student’s disability prior to the count date, or we determined that the student was not
displaced based on the examples above. Alief ISD, located in West Houston, had an enrollment
of approximately 47,000 students at 43 campuses and an average of over 2,500 displaced
students for the first three quarters.

The universe, sample size, and number of students determined to be ineligible for each quarter
are shown below:
Final Audit Report                                                                   Attachment 1 

ED-OIG/A06G0009                                                                      Page 17 of 20 



                Quarters               Universe      Sample     Number           Number
                                                     Size       Determined       Determined
                                                                Misclassified    Ineligible
     Quarter 1 Without Disabilities    1855          50         N/A              0
     Quarter 2 Without Disabilities    2620          50         N/A              1
     Quarter 3 Without Disabilities    2659          50         N/A              2

    Quarter 1 With Disabilities        89            50         1                3
    Quarter 2 With Disabilities        256           50         0                0
    Quarter 3 With Disabilities        289           50         0                2
    Total                              7,768         300        1                8

Alief ISD enrolled the displaced students on an individual basis when the students showed up in
the school district. A Katrina/Rita indicator in the district’s Student Information System (SIS)
database identified displaced students. When enrollment for specific count dates was requested,
the district could run queries through SIS. We reviewed student files to determine if the student
met the requirements of displaced students. The sample students were selected from a universe
provided by the districts and comprised a statistically valid random sample. At the time of our
review, Alief ISD was scheduled to receive a total of $16,065,510 in EIA funds.

The audit results of the six random samples selected in Alief ISD were projected to the universe
of displaced students. The projections statistically quantify the monetary value of the EIA funds
that are associated with reported displaced students, who did not meet eligibility criteria or were
considered to be misclassified.

Aldine ISD

Aldine ISD did not adequately document the displaced status for one percent of the students
without disabilities and nine percent of the students with disabilities sampled for the first three
quarters, which resulted in $12,375 of additional EIA funds being distributed to the district for
the sampled students. Aldine ISD did not provide sufficient documentation to support the
eligibility of the displaced students. For example, Aldine ISD staff did not obtain enough
information to make a displaced determination (name or location of last school attended); or the
enrollment document indicated the student last attended school in a school outside the disaster
area, was enrolled in Aldine ISD prior to August 22, 2005, or was not enrolled in Aldine ISD on
the specific count date. For the students with disabilities, Aldine ISD either did not provide
sufficient proof of the student’s disability prior to the count date, or we determined that the
student was not displaced based on the examples above. Aldine ISD, located approximately 15
miles north of downtown Houston, had an enrollment of more than 56,000 students for the 2003-
2004 school year and an average of over 1,560 displaced students for the first three quarters.

The universe, sample size, and number of students determined to be ineligible for each quarter
are shown below:
Final Audit Report                                                                  Attachment 1 

ED-OIG/A06G0009                                                                     Page 18 of 20 

               Quarters                Universe     Sample     Number           Number
                                                    Size       Determined       Determined
                                                               Miscalculated    Ineligible
    Quarter 1 Without Disabilities     1116         50         N/A              0
    Quarter 2 Without Disabilities     1525         50         N/A              1
    Quarter 3 Without Disabilities     1626         50         N/A              1

    Quarter 1 With Disabilities        74           37         8                1
    Quarter 2 With Disabilities        164          50         2                1
    Quarter 3 With Disabilities        179          50         0                1
    Total                              4,684        287        10               5

Aldine ISD enrolled the displaced students on an individual basis when the students showed up
in the school district. Displaced students were enrolled under the Homeless Act. The students
were coded in the School Administrative Student Information (SASI) system with a different
code for Katrina and Rita. Count data was pulled from the SASI and submitted to TEA. We
reviewed student files to determine if the students met the requirements of displaced students.
The sample students were selected from a universe provided by the districts and comprised a
statistically valid random sample. At the time of our review, Aldine ISD was scheduled to
receive a total of $9,727,726 in EIA funds.

The audit results of the six random samples selected in Aldine ISD were projected to the
universe of displaced students. The projections statistically quantify the monetary value of the
EIA funds that are associated with reported displaced students, who did not meet eligibility
criteria or were considered to be misclassified.

Richardson ISD

Richardson ISD did not adequately document the displaced status for 7 percent of the students
without disabilities and 14 percent of the students with disabilities sampled for the first three
quarters, which resulted in $27,000 in additional EIA funds being distributed to the school
district for the sampled students. Richardson ISD did not provide sufficient documentation to
support the eligibility of the displaced students. For example, Richardson ISD staff did not
obtain enough information to make a displaced determination (name or location of last school
attended); or the enrollment document indicated the student last attended school in a school
outside the disaster area, was enrolled in Richardson ISD prior to August 22, 2005, or was not
enrolled in Richardson ISD on the specific count date. For the students with disabilities,
Richardson ISD either did not provide sufficient proof of the student’s disability prior to the
count date, or we determined that the student was not displaced based on the examples above.
Richardson ISD, located in northern Dallas County, had an enrollment of approximately 35,000
students at 55 campuses and an average of over 900 displaced students for the first three
quarters.

The universe, sample size, and number of students determined to be ineligible for each quarter
are shown below:
Final Audit Report                                                                   Attachment 1 

ED-OIG/A06G0009                                                                      Page 19 of 20 

               Quarters               Universe Sample        Number             Number
                                               Size          Determined         Determined
                                                             Miscalculated      Ineligible
    Quarter 1 Without Disabilities    954         50         N/A                0
    Quarter 2 Without Disabilities    867         50         N/A                4
    Quarter 3 Without Disabilities    752         50         N/A                6

    Quarter 1 With Disabilities       88          41         11                 0
    Quarter 2 With Disabilities       107         49         5                  0
    Quarter 3 With Disabilities       104         50         1                  3
    Total                             2,872       290        17                 13

All of the displaced students were required to go through Student Services so the district could
code the displaced students into PEIMS under the Title I record and the service was marked as
social services. We reviewed student files to determine if the student met the requirements of
displaced students. The sample students were selected from a universe provided by the districts
and comprised a statistically valid random sample. At the time of our review, Richardson ISD
was scheduled to receive a total of $5,939,299 in EIA funds.

The audit results of the six random samples selected in Richardson ISD were projected to the
universe of displaced students. The projections statistically quantify the monetary value of the
EIA funds that are associated with reported displaced students, who did not meet eligibility
criteria or were considered to be misclassified.

Beaumont ISD

Beaumont ISD did not adequately document the displaced status for 27 percent of the students
without disabilities and 45 percent of the students with disabilities sampled for the first three
quarters, which resulted in $147,750 in additional EIA funds being distributed to the school
district for the sampled students. Beaumont ISD did not provide sufficient documentation to
support the eligibility of the displaced students. For example, Beaumont ISD staff did not obtain
enough information to make a displaced determination (name or location of last school
attended); enrollment forms were missing; or the enrollment document indicated the student last
attended school in a school outside the disaster area, was enrolled in Beaumont ISD prior to
August 22, 2005, or was not enrolled in Beaumont ISD on the specific count date. For the
students with disabilities, Beaumont ISD either did not provide sufficient proof of the student’s
disability prior to the count date, or we determined that the student was not displaced based on
the examples above. Beaumont ISD, located east of Houston, had an enrollment of
approximately 20,800 students at 34 campuses and an average of over 1,090 displaced students
for the first three quarters.

The universe, sample size, and number of students determined to be ineligible for each quarter
are shown below:
Final Audit Report                                                                    Attachment 1 

ED-OIG/A06G0009                                                                       Page 20 of 20 

               Quarters               Universe     Sample        Number          Number
                                                   Size          Determined      Determined
                                                                 Misclassified   Ineligible
    Quarter 1 Without Disabilities 1076            50            N/A             9
    Quarter 2 Without Disabilities 1026            50            N/A             10
    Quarter 3 Without Disabilities 832             50            N/A             21

    Quarter 1 With Disabilities       21           21            4               1
    Quarter 2 With Disabilities       168          50            4               8
    Quarter 3 With Disabilities       154          50            1               36
    Total                             3,277        271           9               85

Beaumont ISD enrolled the displaced students on an individual basis when the students showed
up in the school district. Displaced students were identified differently for Hurricanes Katrina
and Rita. For Katrina students, Beaumont ISD coded the students as Katrina students in the
student system, CIMS III. Beaumont then ran a query and identified those specific students and
determined if they were enrolled in school for the specific count dates. For the Rita students, the
district had a difficult time because most of the students were already students within the
Beaumont district. If the students changed schools within the district because they had to
relocate due to Hurricane Rita, that student was counted as displaced. In addition, Beaumont
ISD identified students who attended the Career Center or Pathways schools as displaced
students because both of the schools were closed from October 10, 2005, through January 3,
2006, as a result of Hurricane Rita. After January 3, 2006, the Career Center students were able
to return to their original school and resume the vocational program they were attending prior to
Hurricane Rita. At this time, the students should not have been counted as displaced; Beaumont
did not remove the Career Center students from the displaced student counts for quarters three
and four.

We reviewed student files to determine if the student met the requirements of displaced students.
The sample students were selected from a universe provided by the districts and comprised a
statistically valid random sample. At the time of our review, Beaumont ISD was scheduled to
receive a total of $7,132,891 in EIA funds.

The audit results of the six random samples selected in Beaumont ISD were projected to the
universe of displaced students. The projections statistically quantify the monetary value of the
EIA funds that are associated with reported displaced students, who did not meet eligibility
criteria or were considered to be misclassified.
                                                                                                         Attachment 2


                     TEXAS EDUCATION AGENCY
                     1701 North Congress Ave.* Austin, Texas 78701-1494 * 512/463-9734 * FAX: 512/463-9838 * http://www.tea.state.tx.us



Shirley J. Neeley, Ed.D.
 Commissioner

May 18, 2007


      Sherri L. Demmel 

      Regional Inspector General for Audit 

      U. S. Department of Education 

      Office of Inspector General 

      1999 Bryan Street, Suite 1440 

      Dallas, Texas 75201 


      Dear Ms. Demmel:

      Attached is the official response of the Texas Education Agency (TEA) to the Draft Audit Report of the Office
      of Inspector General's (OIG's) audit of the Hurricane Education Recovery Act, Temporary Emergency
      Impact Aid for Displaced Students (EIA) requirements at the Texas Education Agency and applicable Local
      Education Agencies, Control Number ED-OIG/A06G0009.

      We have structured this response in accordance with the format specified in the Administrative Matters
      section of the Draft Audit Report. For the findings and recommendations with which we do not concur, we
      have stated our reasons for disagreement, provided data to support our position, and identified the
      alternative corrective actions we have taken or plan to take.

      Thank you for the opportunity to review the Draft Audit Report and to submit our proposals for corrective
      actions. I believe that this response addresses the concerns cited in the Draft Audit Report, and I hope that
      our responses will be included in the final audit report. Should you have any questions concerning this
      response, please contact Mr. Cory Green, Senior Director, Division of NCLB Program Coordination by
      phone at (512) 475-3553 or by electronic mail at cory.green@tea.state.tx.us.

      Sincerely,

      /s/
      Shirley J. Neeley

      SJN/hc

      Attachments



      "Good, Better, Best–never let it rest–until your good is better–and your better is BEST!"
                                                                                              Attachment 2


                     Texas’ Response to the Audit of the Hurricane Education Recovery Act, 

                            Temporary Emergency Impact Aid for Displaced Students 

                                      Control Number ED-OIG/A06G0009 



Introduction

The Texas Education Agency (the Agency, TEA) appreciates the Office of Inspector General’s (OIG) consideration of
the traumatic circumstances surrounding Hurricanes Katrina and Rita and the subsequent devastation; however, one
cannot comprehend the severity of the damage and the educational interruption to the displaced students without
having lived and worked through those events. The local education agencies (LEAs) of Texas and other states
receiving displaced students should be commended for their valiant efforts to enroll, assist, and educate these students
in the adverse conditions caused by the hurricanes. In addition, although the federal monetary assistance was greatly
needed and appreciated by LEAs, the timelines and programmatic requirements of this one-time special grant program
caused additional undue burden on the LEAs.

From the time Hurricane Katrina devastated the gulf coast on August 29, 2005, to the first quarter count date on
September 29, 2005, Texas public school districts enrolled over 46,500 displaced students in 619 LEAs. This number
does not capture the unidentified number of displaced students who enrolled in Texas private schools. The agency
required LEAs to collect and to report this data weekly. This requirement began immediately after the first hurricane hit
and displaced students began arriving in Texas LEAs—not after federal funding was made available to LEAs. Districts
and charter schools went above and beyond normal expectations to enroll, assist, and educate the displaced students.
Districts, such as Houston and Dallas, with the assistance of regional education service center (ESC) and state agency
staff enrolled students directly from evacuation centers (i.e., Houston Astro Dome and various convention centers) as
well as on campus sites. In accordance with USDE guidance, question G-7 on serving students in homeless situations
(Attachment 1), districts were advised to enroll the displaced students quickly; to provide any needed assistance—from
educational to emotional—to the students; and to pursue eligibility and documentation issues later. As expected with
homeless students, most hurricane evacuees did not have any documentation. Therefore, LEAs had to rely on verbal
information provided by the parents/guardians and the data made available through the Louisiana Department of
Education (LDE) 2004-05 public school database to verify the students' previous enrollment in Louisiana public schools
and the services provided to the students in their previous educational settings. Additionally, Louisiana had an
extremely high percentage of private school students who were displaced, and the LDE database did not include these
students, so there simply was no documentation available for many displaced students. The displaced student
population was extremely mobile. Displaced students would move from the evacuation centers to temporary housing,
causing students to change schools within the district or even change school districts within a short amount of time. It
was not uncommon for displaced students to move three to four times within a matter of weeks.

By the time Congress enacted the Temporary Emergency Impact Aid for Displaced Students (EIA) program, Texas
LEAs had been providing educational and related services to displaced students for almost five months. The LEAs had
paid for the cost of educating the displaced students from their general fund and with additional funding made available
by the state agency. LEAs were initially excited of the possibility of reimbursing themselves with the newly available
EIA funds. As stated by the OIG auditors, the actual cost of education far exceeded the proposed EIA funding.
Unfortunately, due to the almost impossible timelines and requirements of the EIA program, almost half (47% or 289 of
619) the LEAs in Texas who had served displaced students chose to not apply because they were unable to provide
appropriate documentation in order to apply for the EIA funding. Over 4500 displaced students served by Texas public
school LEAs, and an unidentified number of students in private schools, were never claimed for EIA funding in Texas.
The LEAs provided a great service to the displaced students with little or no expectation of receiving any type of federal
reimbursement for the education costs of the LEAs new students.
HERA Response                                                                                                             2
ED-OIG/A06G0009                                                                                      Texas Education Agency
                                                                                              Attachment 2



The Agency appreciates the Department of Education’s (USDE, the Department) seemingly earnest attempt to provide
flexibility when they could and to assist LEAs and the state in serving the displaced students as the department
program staff continually instructed the state to advise LEAs of the flexibility in the use of the funds. The Agency also
concurs with the auditor’s comments that TEA made accurate allocations of EIA funds to the LEAs and that EIA funds
were expended within allowable cost categories. This finding was also supported by the department’s program office in
their monitoring visit of the program conducted in summer 2006. In addition, the Agency only reserved a minimal
amount of the EIA funding for state administration in an effort to provide the most monetary assistance possible to the
LEAs. Since the EIA funding ended September 2006, the administrative expense incurred by the audit of this program
continues to cost the Agency additional state funding.

While the TEA will agree that documentation and controls could always be improved, we urge the Inspector General
and the Department of Education to attempt to understand the magnitude of the situation in which the LEAs and the
State were placed with two hurricanes and over 46,500 homeless displaced students, and not to exacerbate the difficult
situation further by requesting funding to be returned when the auditors have already stated that the funding did not
cover the actual cost of educating the displaced students—without even considering the additional 4500 displaced
students who were never counted for EIA funding.

As indicated by the results in the Draft Audit Report, documentation could always have been better but there were no
instances of fraud or misuse of EIA funds.

Finding: TEA and the LEAs Did Not Have Adequate Controls for EIA Counts

TEA did not have adequate controls to provide accurate EIA displaced student counts. Specifically, TEA did
not have a process or mechanism to track displaced students and identify data errors, such as students
claimed by multiple LEAs or students that were enrolled prior to August 22, 2005. Additionally, TEA did not
ensure the LEAs maintained the required supporting documentation to substantiate the student counts in
quarterly reports.

The TEA consents that controls and procedures could always be improved. However, in light of the auditor statement
that “TEA made accurate allocations of EIA funds to the LEAs and that EIA funds were expended within allowable cost
categories,” the Agency disagrees that there were inadequate internal controls. A profuse amount of work had to be
completed in a very short timeframe in order to meet the requirements and expectations of the auditors in this unique
situation. There was not time to implement a statewide data collection of individual student data that would have met
the FERPA requirements and meet the short turnarounds of the grant timeline. Additionally, the TEA did advise the
LEAs who were receiving and serving the displaced students to “document those students who enroll in the next few
weeks that have come from Louisiana or Mississippi as a result of the hurricane.” This guidance was given to LEAs in
a letter dated August 31, 2005, (Attachment 2) just days after Hurricane Katrina shocked the Gulf Coast region in
Louisiana and nearly four and one-half months before any type of guidance related to the EIA funding was released.
By the time the USDE guidance dated January 12, 2006, was released, many students had moved several times and
were no longer in the same district that served the student during the first quarter, making it impossible to collect the
additional, specific documentation now required through guidance to substantiate the services provided during the
initial aftermath of the hurricanes.

LEAs changed their quarterly counts numerous times with the various USDE required submissions. Review of the
amended counts usually indicated a decrease overall as LEAs continued to review their documentation. The majority
of increase reported in the various categories was due to the testing and identification of students for special education
services, causing the students to be moved from students without disabilities count to the students with disabilities
HERA Response                                                                                                             3
ED-OIG/A06G0009                                                                                      Texas Education Agency
                                                                                            Attachment 2


count. USDE also requested downward adjustments to be reported; therefore, the TEA also requested the same
adjustments from the LEAs.

OIG recommends that the Assistant Secretary for the Office of Elementary and Secondary Education instruct
TEA to –

1.1 	   Provide support or return approximately $7.96 million of EIA funds for ineligible
        students identified at the seven districts we audited.

        The TEA does not concur with this recommendation.

        Since the OIG’s audit of these seven LEAs, the TEA has continued to work with them in an ongoing review and
        reconciliation of the HERA student eligibility documentation. Through this ongoing review process with the
        LEAs, two substantial outcomes have occurred:

            3.	 Additional documentation regarding student eligibility that lowers the number of ineligible and
                misclassified students reported by the OIG in the draft audit report has been submitted; and
            4.	 Some LEAs reduced the number of students reported for quarters 1–3 based on information obtained
                in the verbal exit conference with the OIG at the conclusion of the on-site visit.

        These actions continue to support the fact that the LEAs that received and served the displaced students from
        Hurricanes Katrina and Rita made every effort to follow the guidelines regarding EIA funding under these
        unique and unprecedented circumstances. Table 1.1 details the reduced ineligible student counts and error
        rates for students without disabilities, and Table 1.2 details the reduced ineligible and misclassified student
        counts and error rates for each of the seven LEAs visited by the OIG.




HERA Response                                                                                                          4
ED-OIG/A06G0009                                                                                   Texas Education Agency
                                                                                          Attachment 2


       Table 1.1 Students Without Disabilities
                LEA         Sample           OIG               OIG              TEA             TEA
                              Size      Determined          Determined      Determined       Determined
                                          Ineligible        Error Rate       Ineligible      Error Rate
        Aldine ISD        150          4                   3%              0                0%
        Alief ISD         150          3                   2%              0                0%
        Arlington ISD     150          12                  8%              4                3%
        Beaumont ISD      150          44                  29%             22               15%
        Dallas ISD        150          37                  25%             0                0%
        Houston ISD       150          13                  9%              5                3%
        Richardson ISD 150             12                  8%              6                4%
        Total             1050         125                 12%             37               4%



Table 1.2 Students With Disabilities
       LEA        Sample       OIG            OIG              OIG           TEA            TEA           TEA Error
                   Size     Ineligible    Misclassified     Error Rate    Ineligible    Misclassified       Rate
Aldine ISD       137        3            27                 22%           0            9                 7%
Alief ISD        150        5            1                  4%            0            0                 0%
Arlington ISD    107        9            10                 18%           4            5                 8%
Beaumont ISD 121            46           9                  45%           7            9                 13%
Dallas ISD       150        39           21                 40%           0            0                 0%
Houston ISD      150        10           19                 19%           4            12                11%
Richardson ISD 150          5            22                 19%           1            12                9%
Total            955        117          109                24%           16           47                7%

       A summary of information for each of the seven LEAs is provided below.

       Aldine ISD
       Attachment 3 – Tables 2.1 and 2.2
       Attachment 4 – Aldine ISD Student Documentation for Students without Disabilities
       Attachment 5 – Aldine ISD Student Documentation for Students with Disabilities
       Attachment 6 – Aldine ISD Revised Student Counts

       Attachment 3 contains two tables regarding new data derived from TEA's ongoing review process with Aldine
       ISD. Table 2.1 shows the eligibility status determined during the ongoing review for the individual students
       questioned by the OIG during its audit. Table 2.2 provides revised numbers of ineligible and misclassified
       students based on this review process. Additionally, based on the information provided to it by the OIG during
       the exit conference, Aldine ISD reduced its number of students on its final student count submitted to the TEA
       for final grant payment. Individual student eligibility documentation for the students that the TEA deems
       eligible through its ongoing review process is provided in Attachments 4 and 5. Documentation verifying the
       reduction in student count is also provided in Attachment 6.




HERA Response                                                                                                        5
ED-OIG/A06G0009                                                                                 Texas Education Agency
                                                                                          Attachment 2


       Alief ISD

       Attachment 7 – Alief ISD Reduced Student Count 


       Based on the information provided to them by the OIG during the exit conference, Alief ISD reduced its number
       of students on its final student count submitted to TEA for final grant payment. Documentation verifying the
       reduction in student count is provided in Appendix B – Alief ISD Student Documentation.

       Arlington ISD

       Attachment 8 – Tables 3.1 and 3.2 

       Attachment 9 – Arlington ISD Student Documentation for Students without Disabilities 

       Attachment 10 – Arlington ISD Student Documentation for Students with Disabilities 

       Attachment 11 – Arlington ISD Revised Student Counts 


       Attachment 8 contains two tables regarding new data derived from TEA’s ongoing review process with
       Arlington ISD. Table 3.1 shows the eligibility status determined for the students questioned by the OIG during
       its audit. Table 3.2 provides revised numbers of ineligible and misclassified students based on this review
       process. Additionally, based on the information provided to them by the OIG during the exit conference,
       Arlington ISD reduced its number of students on its final student count submitted to the TEA for final grant
       payment. Individual student eligibility documentation for the students that the TEA deems eligible through its
       ongoing review process is provided in Attachments 9 and 10. Documentation verifying the reduction in student
       count is also provided in Attachment 11.

       Beaumont ISD

       Attachment 12 – Tables 4.1 and 4.2 

       Attachment 13 – Beaumont ISD Student Documentation for Students without Disabilities

       Attachment 14 – Beaumont ISD Student Documentation for Students with Disabilities 

       Attachment 15 – Beaumont ISD letter and Career Center Course Listing 

       Attachment 16 – Excerpt from PEIMS Data Standards 


       Attachment 12 contains two tables regarding new data derived from TEA’s ongoing review process with
       Beaumont ISD. Table 4.1 shows the eligibility status determined for the students questioned by the OIG during
       its audit. Table 4.2 provides revised numbers of ineligible and misclassified students based on this review
       process. Individual student eligibility documentation for the students that the TEA deems eligible through its
       ongoing review process is provided in Attachments 13 and 14.

       Special Circumstances

       Private School Issues
       Located in East Texas, Beaumont ISD served many displaced students as the result of Hurricane Katrina. On
       September 23, 2005, Beaumont was directly hit by Hurricane Rita. Beaumont ISD was closed to student from
       September 21, 2005 through October 10, 2005, due to Hurricane Rita. This time frame includes the report
       date for Quarter 1, September 29, 2005. When Beaumont ISD reopened, many displaced students that had
       enrolled due to Hurricane Katrina relocated again due to Hurricane Rita. These students did not withdraw from
       school. They simply never came back, and it took the LEA days and weeks to determine if the students had
       truly left or were displaced within Beaumont ISD due to Hurricane Rita.

       Students that were attending private schools within Beaumont ISD boundaries also left during this time period.
       When the EIA regulations and guidance regarding students attending private schools were released in late
HERA Response                                                                                                        6
ED-OIG/A06G0009                                                                                 Texas Education Agency
                                                                                         Attachment 2


       January 2006, which required LEAs to complete certification forms for these displaced students, they were no
       longer in Beaumont ISD, even though they had been served through Beaumont ISD during Quarter 1.
       Additionally, many of the private schools within Beaumont ISD’s boundaries closed after Hurricane Rita and
       reopened later than Beaumont ISD, if at all. Some of these students enrolled in Beaumont ISD, including Pre-
       Kindergarten students. Since their previous private school was now closed, many of these pre-kindergarten
       students did not have documentation of their evacuee status from the private school when they enrolled in
       Beaumont ISD.

       The TEA requests the OIG and USDE to note that in Tables 4.1 and 4.2 in Attachment 12, students in these
       above circumstances are noted as ineligible since documentation for these students is not available. However,
       the Agency also strongly urges the OIG and the Department to consider these challenging circumstances in
       obtaining documentation for these displaced students that were served without question by this LEA.
       Furthermore, this situation was present in LEAs throughout Texas as they worked fervently to meet the needs
       of these displaced students when they enrolled.

       Career Center Closure
       Due to Hurricane Rita, Beaumont ISD’s Taylor Career Center Campus was closed from September 21, 2005,
       through January 2, 2006. On this campus, high school students take vocational classes for a portion of their
       school day in areas such as graphic arts and cosmetology. Due to the technical nature of these classes, a lot
       specialized equipment and supplies are needed to conduct these classes. When Hurricane Rita damaged the
       Career Center campus, Beaumont ISD took multiple measures in an effort to continue these services to its
       students including contracting with local business to provide services and moving equipment and establishing
       classes on another Beaumont ISD campus. Students at Beaumont ISD’s Pathways Disciplinary Alternative
       Education campus were sent back to their home campuses so that the campus could house some of the
       classes originally taught at the damaged Career Center.

       When the Career Center reopened in January 2006, ongoing costs were incurred in moving equipment back to
       the campus, replacing equipment, and in relocating students once again. When classes were able to resume
       at the Career Center, Beaumont ISD continued to count the Career Center students as displaced following
       PEIMS protocols that establish a student’s status for economically disadvantaged and homeless for the entire
       school year. Attachment 15 is a letter from Beaumont ISD documenting this procedure, and Attachment 16 is
       information for the Texas 2005-2006 PEIMS Data Standards regarding economically disadvantaged and
       homeless coding protocols.

       Dallas ISD
       Attachment 17 – Dallas ISD Revised Student Counts

       Based on the information provided to them by the OIG during the exit conference, Dallas ISD reduced the
       number of students on its final student count submitted to TEA for final grant payment.




HERA Response                                                                                                        7
ED-OIG/A06G0009                                                                                 Texas Education Agency
                                                                                          Attachment 2


       The LEA reduced its student count for Quarters 1-3 by the ineligibility percentage indicated by the OIG in the
       exit conference. Therefore, Dallas ISD reduced their Quarter 1 student count by 30%; Quarter 2 by 30%; and
       Quarter 3 by 18%. Documentation verifying the reduction in student count is provided in Attachment 17.

       Houston ISD
       Attachment 18 – Tables 5.1 and 5.2
       Attachment 19 – Houston ISD Student Documentation for Students without Disabilities
       Attachment 20 – Houston ISD Student Documentation for Students with Disabilities

       Attachment 18 contains two tables regarding new data derived from TEA’s ongoing review process with
       Houston ISD. Table 5.1 shows the eligibility status determined for the students questioned by the OIG during
       its audit. Table 5.2 provides revised numbers of ineligible and misclassified students based on this review
       process. Individual student eligibility documentation for the students that the TEA deems eligible through its
       ongoing review process is provided in Attachment 19 and 20.

       Richardson ISD
       Attachment 21 – Tables 6.1 and 6.2
       Attachment 22 – Richardson ISD Student Documentation for Students without Disabilities
       Attachment 23 – Richardson ISD Student Documentation for Students with Disabilities

       Attachment 21 contains two tables regarding new data derived from TEA’s ongoing review process with
       Richardson ISD. Table 6.1 shows the eligibility status determined for the students questioned by the OIG
       during its audit. Table 6.2 provides revised numbers of ineligible and misclassified students based on this
       review process. Individual student eligibility documentation for the students that the TEA deems eligible
       through its ongoing review process is provided in Attachments 22 and 23.

       Conclusion
       These seven LEAs, along with all Texas LEAs, were instructed in the August 31, 2005, letter (Attachment 2) to
       enroll and to serve the students displaced by the hurricanes as homeless. Attachment 24 is TEA guidance
       posted to its website (www.tea.state.tx.us/hcane/faq_edsvcs.html) that states in question 14,
               “A school district or charter school should make every effort to ensure that students eligible to
               participate in special education, gifted and talented, bilingual or ESL services receive those
               services…Further, any student who is in a homeless situation is covered by the federal
               McKinney-Vento Act and is eligible to receive free school meals.”

       This state guidance is based upon Question G-11 on page 18 of the USDE’s Non-Regulatory Guidance for
       Title VII-B of the McKinney-Vento Homeless Assistance Act (Attachment 1) which establishes that,
                 “When children and their families are displaced from their housing as a result of a natural
                 disaster, there is often a period of instability in which various private organizations and local,
                 State, and Federal agencies provide assistance. SEAs




HERA Response                                                                                                        8
ED-OIG/A06G0009                                                                                 Texas Education Agency
                                                                                              Attachment 2


                  and LEAs should determine such children’s eligibility for McKinney-Vento services on a case-
                  by-case basis.”

        Question A-1 on page 2 of the USDE’s Non-Regulatory Guidance for Title VII-B of the McKinney-Vento
        Homeless Assistance Act (Attachment 1), establishes the purpose of the Act as,
               “designed to address the problems that homeless children and youth have faced in enrolling,
               attending, and succeeding in school. Under this program, State educational agencies (SEAs)
               must ensure that each homeless child and youth has equal access to the same free,
               appropriate public education, including a public preschool education, as other children and
               youth. Homeless children and youth should have access to the educational and other
               services that they need to enable them to meet the same challenging State student academic
               achievement standards to which all students are held…”

        In light of this guidance provided by the USDE and the TEA, Texas LEAs began immediately an effort to meet
        all of the displaced students’ needs, including special education. Often times, the LEAs only had the
        information provided to them orally at the time of enrollment or during subsequent conversation with the
        parent/guardians during the early days of instruction. Because of the catastrophic conditions noted above,
        documentation of services provided by previous schools was not available, so LEAs began to serve the
        students based on parental information and within the guidance of service to homeless students until complete
        evaluations could be completed, which can take 30-45 days. Thus, when there is any indication that the
        district received information from a parent or guardian that the student received special education service at
        the previous school and the LEA immediately began serving the student, the TEA believes that the LEA
        appropriately received funds for these students as displaced students with disabilities.

        Given the following, the TEA reiterates its stance that funding should not be returned:

            1.	 the reduced number of ineligible and misclassified students identified during the TEA’s review process;
            2.	 the efforts of the LEAs to serve and to meet the immediate needs of the displaced students in the
                midst of unparalleled and calamitous circumstances; and
            3.	 the auditors own observations that
                    a.	 no fraudulent misuse of these funds were noted, and
                    b.	 the amount of funding received did not fully cover the cost of educating the displaced students.


1.2 	   Provide support or return over $3.4 million of EIA funds for the statewide duplicate students reported
        and students enrolled prior to the eligibility date.

        The TEA does not concur with this recommendation.

        The OIG requested displaced student enrollment information from all the LEAs in Texas that served displaced
        students. This information was requested by the OIG in the spring of 2006. By USDE request, the LEAs were
        to downwardly amend their numbers until July 31, 2006. Information in Attachment 25 provides a sample of
        enrollment information from LEAs comparing




HERA Response                                                                                                           9
ED-OIG/A06G0009                                                                                    Texas Education Agency
                                                                                              Attachment 2


        Quarter 3 enrollment figures to final figures reported through July 31, 2006. The trend is that final numbers
        were reduced as LEAs continued to reconcile and confirm eligibility status and enrollments. Thus, TEA
        believes that the number of duplicate students is much lower than that stated in Draft Audit Report.

        The TEA is in the process of reviewing this duplicate information and contacting districts to verify with
        documentation the enrollment and withdrawal dates of these duplicate and early enrollment students. The
        TEA’s review process has begun by analyzing attendance data for these students from its Public Education
        Information Management System (PEIMS), the State’s comprehensive, statewide, student-specific data
        collection system. This initial review has revealed that some students that the auditors deemed to be duplicate
        students were, in fact, two or sometimes three separate students with the same name. An example of this is
        given in Attachment 26. Other instances reveal that some students the auditors identified as duplicate
        students were actually siblings with names of similar spellings. Again, samples of this instance are provided in
        Attachment 26.

        Because specific enrollment and withdrawal dates are not collected through PEIMS, the TEA will have to
        contact LEAs individually to collect documentation to support the enrollment and withdrawal dates for each
        designated duplicate student. Because of the number of students identified by the auditors from the database
        of preliminary student counts, and the number of LEAs in Texas that served displaced students, this process
        will take a considerable amount of time to complete. Again, the TEA will note that the State no longer has
        administrative funds related to this grant, requiring state funds and personnel to complete these audit-related
        tasks.

        Because of the time and staff needed to complete the review of the duplicate and early enrollment students,
        the TEA has not completed its review of these students. However, the TEA will continue its review of these
        students and will be prepared to offer a more detailed accounting in subsequent responses regarding this
        matter if deemed appropriate by the Department.

        Given the following, the TEA reiterates its stance that funding should not be returned:

            1.	 the TEA has already been able to identify that all “duplicate” students noted in the auditors database
                are not duplicates;
            2.	 LEAs were able to amend student data counts until July 31, 2006;
            3.	 the TEA is in the process of an ongoing review of this student data within the Agency and its LEAs;
                and
            4.	 the unique and challenging circumstances as noted in the introduction and the response to
                Recommendation 1.1.


1.3 	   Conduct a statewide count of displaced students for the $250,890,000 of EIA funds allocated to TEA in
        school year 2005-2006, and return to the Department any funds expended for ineligible or misclassified
        students.

        The TEA does not concur with this recommendation.




HERA Response                                                                                                          10
ED-OIG/A06G0009                                                                                    Texas Education Agency
                                                                                              Attachment 2


        Through its School Financial Audit Division, the TEA has already included EIA funding within its scope of
        financial monitoring and accountability. Because of a situation that occurred at one school and the concerns
        expressed by the Department, the TEA added additional audit procedures to review EIA funds for displaced
        students at any entity that received an audit during the normal audit cycle and also received EIA funds.

        During the normal course of an Agency investigation/audit, Agency auditors verify whether or not the LEA
        received EIA funds. If the LEA did receive EIA funds, the auditors immediately expand their audit scope to
        include procedures to review the displaced student records to assure that the displaced student attendance
        was reported correctly. Initial procedures are to
             1.	 Identify the students claimed as displaced students;
             2.	 Sample student files to verify they were actual displaced students; and
             3.	 Review attendance records to verify all students claimed were enrolled on the official count days.

        There are several LEAs that have undergone this type of review; however, no final audit reports for these LEAs
        are available at the time of this submission. Appropriate corrective actions will be implemented with any LEA
        that is found to have incorrectly implemented EIA grant guidelines.

        In an effort to further increase internal controls, the TEA proposes that should a catastrophic event like
        Hurricanes Katrina and Rita that would require the monitoring of a subgroup of students unable to be tracked in
        PEIMS occur again, the TEA will require that the LEAs submit to the Agency a standardized reporting file, such
        as the KRI file. The TEA will then collect these files and create a statewide database in an effort to provide
        better oversight, monitoring, and reconciliation of student data.

        Given the following, the TEA concludes a statewide count is not warranted and reiterates its stance that funds
        should not be returned:

            1.	 the TEA has already implemented a course of review for EIA funds for additional LEAs in Texas;
            2.	 the TEA has self-imposed a corrective action calling for the submission of additional standardized
                student data files should a catastrophic event occur again;
            3.	 the auditors found no misuse of EIA funds during its review;
            4.	 the auditors noted that the EIA funding per-pupil allocation was not sufficient to cover all cost related
                to serving displaced students; and
            5.	 the TEA has provided documentation to support that the number of ineligible and misclassified
                students is significantly lower than originally indicated by the auditors in their Draft Audit Report; and
            6.	 the LEAs moved to serve these students physical, emotional, and educational needs in the most
                expedient means possible.

1.4 	   Develop a statewide emergency plan for future disasters, which includes controls to ensure accurate
        student data, as well as guidance to the LEAs that outlines how to enroll and track a large influx of
        students.




HERA Response                                                                                                           11
ED-OIG/A06G0009                                                                                     Texas Education Agency
                                                                                            Attachment 2


       The TEA does not concur with this recommendation, but rather submits the following as comparable corrective
       actions currently in development.

       In an effort to further increase internal controls, the TEA proposes that should a catastrophic event like
       Hurricanes Katrina and Rita that would require the monitoring of a subgroup of students unable to be tracked in
       PEIMS occur again, the TEA will require that the LEAs submit to the Agency a standardized reporting file, such
       as the KRI file. The TEA will collect these files and create a statewide database in an effort to provide better
       oversight, monitoring, and reconciliation of student data.

       Additionally, the State is initiating a collaborative effort with other state organizations to develop Statewide
       Uniform School Safety Standards based around the four phases of the Emergency Management Cycle. All
       LEAs will be required to adopt these standards, and they will be the basis for the LEA’s Emergency Operation
       Plan and the School Safety Audit, both of which are required by state legislation. These standards will address
       natural disasters, such as hurricanes. The coordinated group has met twice to formulate the process to be
       followed for development of the state standards. The first statewide meeting of this coordinated group of
       stakeholders to begin the development process is scheduled for June 1, 2007. (See Attachment 27.) The
       state standards can include guidance for accuracy of data reporting and documenting and tracking the
       enrollment of large numbers of students. The state standards are preliminarily scheduled to be developed by
       the end of 2007 with training to be disseminated to all LEAs through the network of regional educational
       service centers.




HERA Response                                                                                                         12
ED-OIG/A06G0009                                                                                   Texas Education Agency
